SPENCER BACHUS, AL, CHAIRMAN                                                BARNEY FRANK, MA, RANKING MEMBER
                               United ~tates !'lOUS( of Represmtati\)(s
                               ([ommirtn on financial ~rr\)ic(s
                                         ~(Jzhington,   B.Q:. 20515


                                            May 20,2011

     Mr. Osvaldo Luis Gratac6s
     Inspector General
     Export-Import Bank of the United States
     811 Vermont Avenue, N.W.
     Washington, DC 20571

     Dear Mr. Gratac6s:

            The Subcommittee on International Monetary Policy and Trade will hold a hearing
     entitled "Legislative Proposals on Securing American Jobs Through Exports: Export-Import
     Bank Reauthorization," on Tuesday, May 24, 2011 at 2 p.m. EST in room 2128 of the
     Rayburn House Office Building. I am writing to confirm your invitation to participate at
     this hearing.

            In your testimony, please provide your assessment of the attached discussion draft
     entitled "Securing American Jobs Through Exports Act of 2011." If there are other
     measures not reflected in the discussion draft that you believe would optimize the
     performance of the Bank in serving U.S. businesses, small and large, and increasing U.S.
     exports and promote domestic job growth, please identify them.

           Please read the following material carefully. It is intended as a guide to your rights
     and obligations as a witness under the rules of the Committee on Financial Services.

            The Form of your Testimony. Under the Rules of the Committee on Financial
     Services, each witness who is to testify before the Committee or its subcommittees must file'
     with the Clerk of the Committee a written statement of proposed testimony of any
     reasonable length. Please also include with the testimony a current resume summarizing
     education, experience and affiliations pertinent to the subject matter of the hearing. This
     must be filed at least two business days before your appearance. Please note that changes
     to the written statement will not be permitted after the hearing begins. Failure to comply
     with this requirement may result in the exclusion of your written testimony from the
     record. Your oral testimony should not exceed five minutes and should summarize your
     written remarks. The Chair reserves the right to exclude from the printed record any
     supplemental materials submitted with a written statement due to space limitations or
     printing expense.

            Submission of your Testimony. Please submit at least 100 copies of your proposed
     written statement to the Clerk of the Committee not less than two business days in
     advance of your appearance. These copies should be delivered to: The Committee on
     Financial Services, Attn:  Committee Clerk, 2129 Rayburn House Office Building,
     Washington, D.C. 20515.

             Due to heightened security restrictions, many common forms of delivery experience
     significant delays in delivery to the Committee. This includes packages sent via the U.S.
Mr. Osvaldo Luis Gratac6s
Page 2

Postal Service, Federal Express, UPS, and other similar carries, which typically arrive 3 to
5 days later than normal. The United States Capitol Police have specifically requested that
the Committee refuse deliveries by courier. The best method of delivery of your testimony
is to have an employee from your organization deliver your testimony in an unsealed
package to the address above. If you are unable to comply with this procedure, please
contact the Committee to discuss alternative methods for delivery of your testimony.

        The rules of the Committee require, to the extent practicable, that you also submit
your written testimony in electronic form. The preferred method of submission of
testimony      in  electronic  form    is   to   send    it via      electronic   mail    to
fsctestimony@mail.house.gov. The electronic copy of your testimony may be in any major
file format, including WordPerfect, Microsoft Word, or ASCII text for either Windows or
Macintosh. Your electronic mail message should specify in the subject line the date and the
Committee or subcommittee before which you are scheduled to testify. You may also
subniit testimony in electronic form on a disk or CD-ROM at the time of delivery of the
copies of your written testimony. Submission of testimony in electronic form facilitates the
production of the printed hearing record and posting of your testimony on the Committee's
Internet site.

       Your Rights as a Witness. Under the Rules of the House, witnesses may be
accompanied by their own counsel to advise them concerning their constitutional rights. I
reserve the right to place any witness under oath. Finally, a witness may obtain a
transcript copy of hislher testimony given in open, public session, or in a closed session only
when authorized by the Committee or subcommittee. However, by appearing before the
Committee or its subcommittees, you authorize the Committee to make technical,
grammatical, and typographical corrections to the transcript in accordance with the rules of
the Committee and the House.

       The Rules of the Committee on Financial Services, and the applicable rules of the
House, are available on the Committee's website at http://financialservices.house.gov.
Copies can also be sent to you upon request.

       The Committee on Financial Services endeavors to make its facilities accessible to
persons with disabilities. If you are in need of special accommodations, or have any
questions regarding special accommodations generally, please contact the Committee in
advance of the scheduled event (4 business days notice is requested) at (202) 225-7502;
TTY: 202-226-1591; or write to the Committee at the address above.

       Please note that space in the Committee's hearing room is extremely limited.
Therefore, the Committee will only reserve one seat for staff accompanying you during your
appearance (a total of two seats). In order to maintain our obligation under the Rules of the
House to ensure that Committee hearings are open to the public, we cannot deviate from
this policy.
Mr. Osvaldo Luis Gratac6s
Page 3

       Should you or your staff have any questions or need additional information, please
contact Anthony Cimino at 202-225-7502




                                        :r
                                         Gary G. MIler
                                         Chairman
                                         Subcommittee on International Monetary
                                         Policy and Trade


SBI

cc: The Honorable Carolyn McCarthy, Ranking Member
Subcommittee on International Monetary Policy and Trade
Statement of Osvaldo Luis Gratacós                                                        May 24, 2011
Inspector General



                                         Statement of
                              Honorable Osvaldo Luis Gratacós
                                      Inspector General
                            Export-Import Bank of the United States

                                           before the

                   United States House of Representatives
                        Committee on Financial Services
             Subcommittee on International Monetary Policy and Trade

                                     May 24, 2011 at 2:00 pm

         Good afternoon, Chairman Miller, Ranking Member McCarthy, and distinguished
members of this honorable Subcommittee.


         Thank you for the invitation and opportunity to testify before you about the
activities of the Office of Inspector General (OIG) and the programs and operations of
the Export-Import Bank (Ex-Im Bank) as it relates to Securing American Jobs Through
Exports: Export-Import Bank Reauthorization. Before I continue, I would like to thank
the Almighty for this opportunity, my family, and the members of the Ex-Im OIG staff for
their hard work.

I.       Ex-Im Bank

         The Ex-Im Bank is the official export credit agency (“ECA”) of the United States.
Ex-Im Bank supports the financing of U.S. goods and services in international markets,
turning export opportunities into actual sales that help U.S. companies of all sizes to
create and maintain jobs in the United States. Ex-Im Bank has programs to address
short, medium, and long-term needs of exporters; assuming the credit and country risks
that the private sector is unable or unwilling to accept. Ex-Im Bank also helps U.S.
exporters remain competitive by countering the export financing provided by foreign
governments on behalf of foreign companies. At the same time, Ex-Im Bank must




                                            1 of 9                          Office of Inspector General
                                                                     Export-Import Bank of the United States
Statement of Osvaldo Luis Gratacós                                                                                 May 24, 2011
Inspector General


safeguard taxpayer resources by determining that there is a reasonable likelihood of
repayment with respect to each of its transactions.

            Ex-Im Bank is experiencing unprecedented growth - achieving three straight
years of record authorization levels. Ex-Im Bank is projecting another record year in
FY 2011. For the first six months of FY 2011, Ex-Im Bank reported $13.4 billion in new
authorizations. Ex-Im Bank has achieved this increase with basically the same staffing
level for the past decade. This not only demonstrates the commitment, knowledge, and
expertise of the staff at Ex-Im Bank, but also the need in the market for government
supported export financing in this very competitive and difficult credit market.

II.         Ex-Im OIG

            Ex-Im OIG was statutorily created in 20021 but the Inspector General (IG) did not
officially take office until August 2007. Since reaching current staffing levels, the OIG
has achieved noticeable success in performing its statutory duties. Specifically, the OIG
has issued nineteen (19) audit and special reports containing over eighty-two (82)
findings, recommendations, and suggestions for improving Ex-Im Bank programs and
operations. Our investigative efforts have resulted in a number of law enforcement
actions, including: fifty-nine (59) indictments and arrests; six convictions, fourteen (14)
guilty pleas; and over one hundred and seventy eight (178) management referrals for
enhanced due diligence actions. Since 2009, the total overall OIG financial impact is
approximately $209 million. Currently, the OIG is investigating thirty-seven (37) open
matters representing approximately $348 million in claims paid by Ex-Im Bank (or
around 15.3% of all Ex-Im Bank claims paid as of the end of FY 2010). All of this has
been accomplished with a very modest annual budget of $2.5 million and a staff of
eleven professionals.




1
      Export-Import Bank Reauthorization Act of 2002, P.L. 107-189, Sec 22 (June 14, 2002).

                                                          2 of 9                                     Office of Inspector General
                                                                                              Export-Import Bank of the United States
Statement of Osvaldo Luis Gratacós                                                       May 24, 2011
Inspector General


III.     Securing American Jobs Through Export Act of 2011

         Through this hearing and the reauthorization process, this honorable
Subcommittee is carefully and thoughtfully considering amendments to the existing
Ex-Im Bank charter. The OIG believes that some of the proposed language being
considered by the Subcommittee directly impacts Ex-Im Bank challenges and
weaknesses described in section IV below. Specifically, recognizing the need to
improve Ex-Im Bank’s IT infrastructure is an important step towards providing Ex-Im
Bank with the appropriate tools to handle its mission. In order to effectively improve its
IT capabilities, Ex-Im Bank should establish comprehensive IT development and
implementation plans focused on available technology and benchmarked with systems
used by other ECAs and private sector counterparts. The system should focus on the
business needs of the different Ex-Im Bank components and be geared towards
achieving Ex-Im Bank strategic goals.

         Further, requiring Ex-Im Bank to develop comprehensive and clear guidance
stating domestic content requirements provides Ex-Im Bank users with a clear
understanding of what goods and services qualify for guarantees and insurance
coverage and the level of financing. This would allow for more transparency and
openness in conducting business with Ex-Im Bank. This guidance should be developed
by determining the level of domestic content coverage provided by other ECAs, input
from Ex-Im Bank participants (through Federal Register notices for public comments),
and include clear internal policies and procedures for proper implementation by Ex-Im
Bank staff (to prevent weaknesses listed in section IV below).

         Proper implementation of these amendments could have a noticeable impact on
Ex-Im Bank operations and future customers and clients by making Ex-Im Bank more
efficient and competitive.




                                        3 of 9                             Office of Inspector General
                                                                    Export-Import Bank of the United States
Statement of Osvaldo Luis Gratacós                                                           May 24, 2011
Inspector General


         On a final note, the OIG respectfully petitions this honorable Subcommittee to
reconsider the scope of Section 5(a)(i)(9), Report to Congress, requiring the Inspector
General to provide a report on the impact of the domestic content rules on exporters.
We believe that this requirement would be better served as part of Ex-Im Bank’s
implementation of its new guidance. The OIG would work closely with Ex-Im Bank and
Congress to assess the effectiveness of data and methodologies used in the reporting
to ensure that Ex-Im Bank and Congress can fully and appropriately evaluate the
effectiveness of these new guidelines.

IV.      Competitiveness: Operational Areas
           In order to better meet export credit needs of the American exporters and
improve the customer service experience of its participants while balancing its
responsibilities, it is our opinion that Ex-Im Bank needs to address some operational
weaknesses and challenges it is facing. We believe that addressing these operational
weaknesses and challenges would provide Ex-Im Bank with a more efficient capability
to create and maintain jobs in the United States. Besides increasing staffing levels to
reflect the growth in authorizations, some of the challenges Ex-Im Bank needs to
address are:

          Inefficient and Ineffective Information Technology (IT) platform. Ex-Im Bank
              uses an ineffective, inefficient, and fragmented IT platform and infrastructure
              composed of several systems and databases. These systems and databases
              do not effectively and accurately interface with each other - compromising
              data integrity, creating duplicative information, and unreliable files. Further,
              these systems makes data mining burdensome and time consuming.

              o Ex-Im Bank lacks an end-to-end IT system that allows for seamless
                  management of applications/files, flow of information within the Bank, and
                  would allow different components within the Bank to work on the same
                  files at the same time from the same platform.

              o Ex-Im Bank lacks a centralized and comprehensive participant database
                  that would allow the Bank to capture and track all the participants (lenders,

                                            4 of 9                             Office of Inspector General
                                                                        Export-Import Bank of the United States
Statement of Osvaldo Luis Gratacós                                                            May 24, 2011
Inspector General


                  buyers, exporters, suppliers, brokers, agents, and others) involved at
                  different transactions at any given moment in time. This weakness
                  prevents Ex-Im Bank and our office from conducting effective forensic
                  analysis to identify possible patterns in transactions.

              o Because the IT platforms do not fully meet business and operational
                  needs, Ex-Im Bank divisions and components have created subsequent
                  data sub-systems to address the specific needs of that office or division.
                  Some of these sub-systems require manual input of data and do not
                  interface with Ex-Im Bank’s main IT infrastructure creating additional data
                  repositories.

              o The above described IT system fragmentation creates a number of
                  operational consequences for the Ex-Im Bank, such as:

                           Delays in approval of transactions

                           Data integrity issues (due to manual input or updates of data)

                           Multiple data storage locations

                           Burdensome and somewhat ineffective management of
                            applications and assets

          Develop Performance Standards and Metrics for Programs and Products.
              Ex-Im Bank has not developed annual performance plans or product
              performance metrics in order to properly quantify the effect and success of its
              products. Ex-Im Bank should develop these metrics in short and medium
              term products in order to determine whether:

              o The product is achieving the intended results

              o The product is reaching the intended audience

              o The marketing strategy is effective

              o The product is similar or more competitive than programs offered by other
                  ECAs


                                              5 of 9                            Office of Inspector General
                                                                         Export-Import Bank of the United States
Statement of Osvaldo Luis Gratacós                                                          May 24, 2011
Inspector General


              o The product should be altered or eliminated

              o Acceptable levels of defaults and claims have been established

              o Levels of defaults and claims should be improved

              o Changes in original implementation strategies are needed

          Continue Efforts to Expand Small Business Participation. Ex-Im Bank charter
              imposes a twenty (20) percent small business participation requirement of all
              of the authorizations every year. Ex-Im Bank has exceeded this mandate in
              the last two years and it is expecting to surpass it again in FY 2011. Ex-Im
              Bank has been able to achieve its mandate by:

              o Conducting Export Forums throughout the United States

              o Developing partnerships with different lenders, local governments, and
                  industries

              o Creating products specifically for small businesses (Global Access,
                  Express Insurance and Reinsurance products)

              o Continue collaboration and cooperation with other agencies, including the
                  Small Business Administration and Department of Commerce, in order to
                  reach out to small businesses. Enhancing export opportunities requires
                  the participation, training, and collaboration of other federal agencies. The
                  National Export Initiative addresses and encourages collaboration
                  between agencies

          Continue Efforts to Expand Renewable Energy Products and to Create Clean
              Energy Export Opportunities. Ex-Im Bank charter contains a Renewable
              Energy mandate of ten (10) percent of all the authorizations every year.
              Ex-Im Bank has not met this mandate yet, mainly because the renewable
              energy exports have not reached significant numbers (compared with the size
              of Ex-Im Bank’s portfolio). Nonetheless, Ex-Im Bank has taken a proactive
              approach in developing renewable energy specific products such as Solar



                                           6 of 9                             Office of Inspector General
                                                                       Export-Import Bank of the United States
Statement of Osvaldo Luis Gratacós                                                         May 24, 2011
Inspector General


              Express, as well as reaching out to local companies such as wind and solar
              manufacturers.

          Reduce the Time it takes to Approve Short and Medium Term Transactions.
              Some Ex-Im Bank participants have complained in the past about the
              approval times and process. Reducing the time it takes to approve
              transactions would allow American exporters to develop better relationships
              with clients and customers, would encourage borrowers and sellers to use
              Ex-Im Bank, and would improve the services Ex-Im Bank provides to its
              users.

V.       Other Observations from OIG Cases and Reports

         Ex-Im Bank has the important responsibility of providing export financing in a
very difficult credit environment while also protecting the taxpayers, the integrity of its
programs, and the full faith and credit of the United States. In conducting our audits,
evaluations, inspections, and investigations, the OIG has conveyed to Ex-Im Bank
observations presented in transactions and programs under the OIG purview. These
are:

          Enhance Due Diligence and Credit Underwriting Practices (specifically for
              Short and Medium Term programs) and Training Efforts to Address Surge in
              Application and Decentralized Application Approval Process. Currently,
              Ex-Im Bank uses a decentralized underwriting process. Given the lessons
              learned from the Medium Term program, the surge in the number of
              transactions and insufficient credit information and history from borrowers in
              some regions, it is vital that Ex-Im Bank enhances due diligence practices in
              order to better identify fraudulent transactions. With individual Delegated
              Authority as high as $10 million, Ex-Im Bank needs to develop effective
              policies, procedures, and compliance practices to assess effectiveness of the
              delegations. Some of these policies should address the following:




                                           7 of 9                            Office of Inspector General
                                                                      Export-Import Bank of the United States
Statement of Osvaldo Luis Gratacós                                                               May 24, 2011
Inspector General


                       o Uniform credit and underwriting standards to be used by all Ex-Im
                            Bank credit officers

                       o In regions where defaults and fraud experience is high, more
                            frequent use of security interest in order to better mitigate risks
                            associated with some of these transactions

                       o In regions where defaults and fraud experience is high, and Ex-Im
                            Bank does not have previous transactional experience with
                            borrowers, the Bank should require independently audited financial
                            statements

          Require Lender Partners and Participants to Conduct, at a Minimum, Industry
              Standard Due Diligence on Government Guarantees and Insurance
              Transactions. One of the patterns our office has observed in conducting our
              investigations is the lack of due diligence efforts conducted by lenders with a
              history of defaulted or fraudulent transactions. Even though there is an
              expectation that such efforts have been taken, Ex-Im Bank does not require
              participating lenders to conduct due diligence on their transactions. The OIG
              has anecdotal evidence of loan officers in lending institutions expressing their
              position that the lender would not spend resources on due diligence efforts
              when there is a government guarantee. Although the OIG is not in a position
              to state that this is a behavior demonstrated by all lenders, we can certainly
              state that this “moral hazard” issue has been prevalent in fraud cases
              involving multiple transactions. Effective implementation of Knowing Your
              Customers practices by lenders could help in minimizing or preventing the
              number of fraudulent cases Ex-Im Bank has experienced.

          Improve Corporate Governance and Internal Control Policies and Practices.
              One of the constant observations arising out of audits, evaluations, and
              investigations conducted by the OIG are the weaknesses in governance and
              internal controls, as they relate to business operations. Internal policies
              providing clear guidance to staff and establishing clear roles and authorities

                                               8 of 9                              Office of Inspector General
                                                                            Export-Import Bank of the United States
Statement of Osvaldo Luis Gratacós                                                        May 24, 2011
Inspector General


              are not prevalent at Ex-Im Bank. These areas need to be addressed as part
              of creating a better corporate governance culture.

VI.      Conclusion

         Ex-Im Bank has an important role in creating and maintaining jobs by facilitating
exports through export finance products provided to American exporters. Three years
of record exports authorization levels only support that role. While Ex-Im Bank
continues to provide export credit and financing as part of its export credit agency
functions, it should work to improve its operational effectiveness and efficiencies in its
quest of achieving the National Export Initiative’s goal of doubling exports in the next
four years.

         I have highlighted some of those areas based on observations and relevant work
performed by the OIG in order to illustrate the importance of proper management,
oversight of strategies, and to incorporate lessons learned from prior Ex-Im Bank’s
activities. The OIG will continue to enhance its independent oversight role as well as
strengthen its efforts in preventing and detecting fraud, waste, and abuse.

         Chairman Miller, Ranking Member McCarthy and members of this honorable
Subcommittee, thank you once again for the opportunity to testify before you today. I
would be pleased to respond to any questions you may have. Thank you!




                                          9 of 9                            Office of Inspector General
                                                                     Export-Import Bank of the United States
                                       June 3,2011




      Thank you for testifying at the May 24) 2011, Subcommittee on International
Monetary Policy and Trade hearing entitled, . . . Legislative Proposals on Securing American
Jobs Through Exports: Export-Import Bank Reauthorization."

       A copy of your transcript has been provided should you wish to make any
corrections. Please indicate these corrections directly on the transcript. Due to the
disruption of mail service to the House of Representatives we ask that you fax or
e-mail your corrections in lieu of mailing them. Please send your corrections
within (15) business days upon receipt to:

                            Terrie Allison, Editor
                            Committee on Financial Services
                            Fax (202) 225-4254
                            terrie. allison@mail.house.gov
                            Phone (202) 225-4548

       Rule XI, clause 2(e)(1)(A) of the Rules of the House and Rule 8(a)(I) of the Rules of
the Committee state that the transcript of any meeting or hearing shall be "a substantially
verbatim account of the remarks actually made during the proceedings, subject only to
technical, grammatical,. and typographical corrections authorized by the person making the
remarks involved." We therefore ask that you keep your corrections to a minimum.

       Also included are questions submitted by Representative Carolyn McCarthy. We ask
that you respond to these questions in writing for the record within 15 business days. Your
responses may be faxed or e-mailed. See information above.

       If during the hearing you: (1) offered to submit additional material; or (2) were
requested to submit additional material; please submit this material via electronic mail by
sending it to terrie.allison@mail.house.gov. If you are unable to submit the material
electronically, please contact the Committee staff to arrange for submission.
Rep. Carolyn McCarthy (NY-4)


Panel 2: Mr Gratacos:
Your testimony touches on the required action of the 1G to report to Congrss evaluating the content
guideline that the Bank must adopt.
   • Please explain the impact such a function could have on your resources> and if that would impact
       your ability to carry out the other duties your office is required to perfonn?
                DO NOT DETACH

             ~.~. ~lJUSt      of itepttsentatibes
         Q1:ommittee on jfinandat $erbiC:t5
          2129 ~Ilpburn ~OUSt ~ffitt ~ui(bing
                    ~a:jDinlltDn.   18«: 205L5

                                G, 3\11 .
                             Date           I
  Ref~rred to       Q 5 \) a ld 0 G~C\ (~ s.
      Attached is a transcript of your remarks
 given before the Committee.
      Listed below are the pages on which
 your remarks begin (and may continue on
 the next or succeeding pages). Please legibly
 indicate any corrections thereon and attach
 all insert or supplemental information to the
 proper page or pages to which it is to appear.

Clause 2(e)(1)(A) of rule XI of the
Rules of the House and rule 8(a)(1) of
the Rules of the Committee on Financial
Services provides that the transcript of
any meeting or hearing shall be "a
substantially verbatim account of the
remarks actually made during the
proceedings t subject only to technical,
grammatical,      and     typograpbical                                      r
                                                                             . -',.   ~-
correctioDB. "

    Supplemental material supplied for the
record should be of photographic quality for
reproduction. Please indicate clearly, by
page and line, where supplemental
requested material is to be placed. If the
requested infonnation is sent directly to the
Member requesting such information, a copy
should also be attached to this transcript.
    Seepages __ _____________________
                        ~




Please return to:      Doc~ent Clerk     I E:J.<\

                       Committee on Fh{ancial Services
                                                      \-0. (
                       2129 Rayburn H.O.B.
                       Washington, D.C. 20515

                        d,1.}d-      ~~- '-i !"i( ~
                                                  GPO: 20DS   22-140 (moe)
 HBA144.200                                             PAGE         1


 1   RPTS KESTERSON

 2   DCMN HOFSTAD




 3   LEGISLATIVE PROPOSALS ON SECURING

 4   AMERICAN JOBS THROUGH EXPORTS:

 5   EXPORT-IMPORT BANK REAUTHORIZATION

 6   Tu~sday,   May 24, 2011

 7   House of Representatives,

 8   Subcommittee on International

 9   Monetary Policy and Trade,

10   Committee on Financial Services,

11   Washington, D.C.




12        The subcommittee met, pursuant to       1, at 2:55 p.m., in

13   Room 2128, Rayburn House Office Building, Hon. Gary Miller

14   [chairman of the subcommittee] presiding.

15        Present:    Representatives Miller     California, Dold,

16   Manzullo, Huizenga, Moore, and Scott.
   HBA144.200                                               PAGE        44


1000           Chairman MILLER OF CALIFORNIA.   I would like to call the

1001   next panel forward.      As they 'are seating, I would like to

1002   take time to introduce each one of them.

1003           Mrs. Donna K. Alexander is chief executive officer of

1004   the Bankers' Association for Finance and Trade -

1005   International Financial Services Association, BAFT-IFSA.         Ms.

1006   Alexander formerly served on the U.S. Export-Import Bank

1007   Sub-Saharan African Advisory Committee, representing the

1008   financial services industry.

1009           Mrs. Thea Lee has served as a deputy chief      staff for

1010   the American Federation of Labor and Congress of Industrial

1011   Organizations, AFL-CIO, since 2009.      She is also a member of

1012   the State Department Advisory Committee         International

1013   Economic Policy and the Export-Import Bank Advisory

1014   Committee.

1015           Mr. Osvaldo Luis Gratacos--did I do that properly or was

1016   I close?

1017           Mr. GRATACOS.   Close enough.

1018           Chairman MILLER OF CALIFORNIA.   Close enough/ that will

1019   work.     Osvaldo--is that right?

1020           Mr. GRATACOS.   Yes.

1021           Chairman MILLER OF CALIFORNIA.   Okay--is the inspector

1022   general for the Export-Import Bank, serving as acting

1023   inspector general since October 2009.      Before his nomination,

1024   Mr. Gratacos served as         deputy inspector general and
   HBA144.200                                                PAGE      45


1025   counsel to the inspector general, where he served as OIG's

1026   principal administrative and legal officer.

1027          Mr. John Hardy--that is an easier one to pronounce--is

1028   president of the Coalition for Employment Through Exports,

1029   CEE.    Mr. Hardy has spent his career, both in the government

1030   and the private sector r on export promotion and project of

1031   trade finance sector.

1032          Dr. Matthew Slaughter is the associate dean for the MBA

1033   program and the Signals Company professor of management at

1034   the Tuck School of Business at Dartmouth College.        Professor

1035   Slaughter is a keynote speaker to many audiences and business

1036   and policy communities and has testified before both chambers

1037   of the U.S. Congress.

1038          I believe, in fact,   just last month, you were 'invited by

1039   the minority to testify before the Domestic Monetary Policy

1040   Committee.    Is that correct?

1041          Mr. SLAUGHTER.   That is correct.

1042          Chairman MILLER OF CALIFORNIA.      Mrs. Alexander, you are

1043   recognized for 5 minutes.

1044          Thank you all for coming.
   HBA144.200                                                            PAGE    56


1274        Chairman MILLER OF CALIFORNIA.                  Thank you.

1275        Mr. "Gratacos fl ?         Is that closer?

1276        Mr. GRATACOS.        tI   Gratacos . tI     Yeah.

1277        Chairman MILLER OF CALIFORNIA.                  Okay.   You are

1278   recognized for 5 minutest sir.                  And I apologize for

1279   butchering your name.



1280   STATEMENT OF OSVALDO LUIS GRATACOS




1281        Mr. GRATACOS.        No, it is fine.

1282        Good afternoon, Chairman Miller and distinguished

1283   members of this subcommittee.                  Thanks for the opportunity to

1284   testify about the activities of the Office of Inspector

1285   General and the programs and operations at Ex-1m Bank.

1286        Before I continue, I would like to thank you for this

1287   opportunity, my family and members of the Ex-1m OIG staff.

1288        In my remarks, I will provide a brief history of the OIG

1289   and some of its accomplishments.                  Then I will discuss some of

1290   the challenges and inefficiencies Ex-1m Bank is facing in

1291   performing its mission, based on our reports and

1292   observations.    Finally, I will provide some observations on

1293   some of the charter language proposed of this subcommittee.

1294        Ex-1m OIG was created by law in 2002, but the inspector

1295   general, the IG, did not take office until August 2007.
   HBA144.200                                            PAGE             57


1296   Since reaching current staff levels, about 11 folks, the eIG

1297   has achieved noticeable success in performing its duties.

1298   Especially, the eIG has issued 19 audits and special reports

1299   containing over 82 findings, recommendations, and suggestions

1300   for improving Ex-1m Bank programs and operations.      Law

1301   enforcement actions total 59 indictments and arrests, 6

1302   convictions, 14 guilty pleas, and over 178 management

1303   referrals for. enhanced due diligence actions.

1304        Currently, we have 37 matters under investigation

1305   involving 534 transactions, totaling $350 million in claims

1306   paid by Ex-1m Bank.   Since 2009, the total overall IG

1307   financial impact is approximately $209 million, whi          our

1308   budget has remained at 2.5 per year.

1309        Ex-1m Bank, as the official credit agency of the United

1310   States,     experiencing incredible growth in the last few

1311   years.    In order to provide a more effective and competitive

1312   environment, Ex-1m needs to address some of its operational

1313   weaknesses and inefficiencies.

1314        Some of these are:   replacing an aging and ineffective

1315   infrastructure.   The current infrastructure is old,

1316   fragmented, does not adequately support Ex-1m Bank's business

1317   needs, limits the Bank's ability to meet the market demands,

1318   and requires manual inputs, leading to human errors.

1319   Currently, my office has undertaken a comprehensive audit of

1320   IT systems, subsystems, and other infrastructures at the
   HBA144.200                                              PAGE        58


1321   Bank, with the objective of looking for ways to improve the

1322   system and to look at expenditures throughout the years.

1323           Number two, Ex-1m Bank needs to reduce transactional

1324   approval times for its short- and medium-term programs.

1325   Ex-1m recognizes this inefficiency and is working toward a

1326   way to fix it.     We are commencing work on an.evaluation and

1327   review       the process, with the objective of improving this.

1328           Number three, develop annual performance plans to

1329   measure program and product effectiveness.      This would allow

1330   Ex-1m to allocate the resources objectivelYI based on success

1331   or       lure of its product.   After discussion with my office,

1332   Ex-1m has agreed to develop this plan starting in fiscal year

1333   2012.

1334           Regarding the current language proposed by the

1335   subcommittee! we have some observations.      In Section 5, this

1336   report to Congress, asking the IG to issue a report on some

1337   areas regarding domestic content rules! we respectfully

1338   petition this subcommittee to reconsider the proposed

1339   language here, in fact, because we strongly believe that some

1340   of the topics covered by the report will fall outside the

1341   statutory duties of fraud, waste, and abuse of the IG.

1342   Further, it contains potential negative budget implications

1343   for our office, given the limited budget that we have.

1344           Finally! Section 6, talking about IT improvements! it

1345   recognizes Ex-1m IT weaknesses; however, a positive outcome
   HBA144.200                                               PAGE        59


1346   is only achievable if Ex-Im Bank develops comprehensive IT

1347   strategic and implementation plans focused on the business

1348   needs of the Bank and the markets.

1349           Chairman Miller and members of this subcommittee, thank

1350   you once again for the    oppo~tunity   to testify before you.

1351   And I will be pleased to respond to any questions you might

1352   have.

1353           [The statement of Mr .. Gratacos follows:]



1354   ******** INSERT 1-4 ********
   HBA144.200                                                 PAGE        100

2299        Mr. SCOTT.    Thank you.

2300        Chairman MILLER OF CALIFORNIA.       Thank you, Mr. Scott.

2301        Mr. Dold?

2302        Mr. DOLD.    Thank you, Mr. Chairman.

2303        Mr. Gratacos, we haven't heard from you in a little

2304   while t so I thought we would at least try to mix it up a

2305   little bit.

2306        Chairman MILLER OF CALIFORNIA.       Go to the middle.
2307        Mr. DOLD.    Yeah, go right to the middle.       We will get

2308   right in the middle of the table.
2309        Ex-1m Bank has, what I have been told, a pretty

2310   antiquated IT system.     Would you agree?

2311        Mr. GRATACOS.    Absolutely, yes.

2312        Mr. DOLD.    Can you tell me, do you bel          that this

2313   represents a risk to the Bank?

2314        Mr. GRATACOS.    Not only a    sk, I mean, we have

2315   complaints about how some of the human errors have actually

2316   affected some of the transactions.       When you look into the

2317   systems, they have disappeared or the buyer's name

2318   disappeared, so when the claim is going to be submitted, it

2319   is inconsistent with the paperwork.      And so we have included

2320   that as part of our audit that we conduct on the systems.

2321        We have         very outspoken on the changes needed to

2322   improve the efficiency of the Bank.       I   mean, if the Bank

2323   wants to meet the growth t this is one of the functions--one
   HBA144.200                                                   PAGE        101


2324   of the areas they need to improve significantly.

2325           Mr. DOLD.   And you talk about growth.       Do you believe

2326   that raising the Ex-lm Bank's exposure cap from $100 billion

2327   dollar to $160 billion is going to be a risk to the

2328   taxpayers?

2329           Mr. GRATACOS.     That is a good question.     I think the

2330   risk to the taxpayers is how Ex-Im will handle the internal

2331   management of the assets and how it conducts the underwriting

2332   practices.     I think that is a focus of the Bank regardless of

2333   the level of authorization.         And I think part of the report

2334   that we have issued goes along these lines, trying to

2335   highlight some of the             iciencies or areas      improvement

2336   in the underwriting practices across programs.

2337           Mr. DOLD.   Okay.

2338           Dr. Slaughter, in your testimony, you recommend a

2339   significant increase in Ex-lm's total financing cap.             Can you

2340   tell me and just, you know, elaborate on the importance of

2341   that?     And is this a big enough increase?       Would you like to

2342   see it be higher?        Can you just elaborate?

2343           Mr. SLAUGHTER.      Sure, Congressman.

2344           Again, for the U.S. To have a sustainable recovery, we

2345   can't just build back the kinds of jobs we had before the

2346   crisis.     Part of the reason we had the cri        s was low

2347   savings, excess consumption in the United States.           So, again,

2348   I think the President's initiative, the thing about doubling
   HBA144.200                                                  PAGE       102


2349   American exports.     But, boy, we can't just kind of hope that

2350   that happens.

2351        And one of the policy mechanisms we could have would be

2352   to substantially increase the lending cap for Ex-1m Bank to

2353   really help America, different firms, big and little, have

2354   the opportunity to grow export sales.     And I think Mr.

2355   Hardy's data that he cited are pretty telling r when you look

2356   at how aggressive other countries are in their support for

2357   exports sales by their companies.

2358        Mr. DOLD.    One of the things that--we have a number of

2359   small businesses.     We always focus on some of the larger

2360   businesses; they seem to get a little bit more of the

2361   headlines.     You get, you know, the big airplanes that are

2362   going over with Boeing or GE or something along those lines.

2363   In the 10th District in Illinois,my hometown, actually, we

2364   have a great record because over 80 percent of the loans made

2365   by Ex-1m are made to small businesses r which     I    think are

2366   important.

2367        What should we be doing to encourage or at least get

2368   that promotion out for small businesses?     When we talk about

2369   that cap, when we talk about trying to increase exports, I

2370   view it has to beacross all sectors, not just some of the

2371   larger ones.

2372        Mr. SLAUGHTER.     So, I think two things.       One is the

2373   focus on services.     I think a lot of smaller businesses, some
   HBA144.200                                               PAGE   103


2374   of them are manufacturing but others are in a range of

2375   activities, and they can find these niche markets abroad that

2376   they can sell into.

2377        And I think the observations earlier about the

2378   information systems, I think a lot of smaller businesses,

2379   they need those technology-mediated connections to be able to

2380   make things work for them.

2381        Mr. DOLD.   Great.~


2382        Thank you, Mr. Chairman.     I yield back.

2383        Chairman MILLER OF CALIFORNIA.     Thank you.

2384        I would like to thank you for your testimony on the

2385   discussion draft.     It was veryinformative.

2386        The chair notes ·that some· Members may have additional

2387   questions for this panel, which they may wish to submit in

2388   writing.   Without objection, the hearing record will remain

2389   open for 30 days for Members to submit written questions to

2390   these witnesses and to place their responses in the record.

2391        rhis hearing is adjourned.     Thank you.

2392        [Whereupon! at 5:00 p.m., the subcommittee was

2393   adjourned.]
Statement of Osvaldo Luis Gratacós                                                       June 7, 2011
Inspector General



                        Response to Question from the
                                 Statement of
                      Honorable Osvaldo Luis Gratacós
                              Inspector General
                  Export-Import Bank of the United States
                                  before the
                  United States House of Representatives
                       Committee on Financial Services
            Subcommittee on International Monetary Policy and Trade
                                      on
                                May 24, 2011


Question: Your testimony touches on the required action of the IG to report to Congrss
(sic) evaluating the content guideline that the Bank must adopt: please explain the
impact such a function could have on your resources, and if that would impact your
ability to carry out the other duties your office is required to perform?


Response: Thank you for the opportunity to testify before the Subcommittee on
International Monetary Policy and Trade and to respond to this question. H.R. 2072,
Securing American Jobs Through Exports Act of 2011, Section 5(i)(7), Report to
Congress, directs the Inspector General (IG) of the Export-Import Bank (Ex-Im) to
conduct an evaluation of the impact on exporters and jobs of new or modified domestic
content guidelines enacted by Ex-Im. This section states the reporting period for the IG
report and broadly dictates the factors, elements, and areas that should be included in
this report. We strongly believe that the scope of this evaluation falls outside the
statutory role of the IG to detect and prevent fraud, waste, and abuse and could have
U.S. Government-wide policy implications. Further, if H.R. 2072 is passed as written,
the OIG is not structured or sufficiently financed to successfully produce such a report.

Impact upon the Statutory Role and Structure of the OIG: The Office of Inspector
General (OIG) was been established by the Inspector General Act of 1978 to provide an
independent office within federal agencies to detect and prevent fraud, waste, and
abuse while improving the efficiency and effectiveness of the agencies’ operations. The
statutory role of the OIG, as it relates to domestic content guidelines issued by Ex-Im, is

                                        1 of 3                          Office of Inspector General
                                                                  Export-Import Bank of the United States
Statement of Osvaldo Luis Gratacós                                                       June 7, 2011
Inspector General


not to determine what approach (more domestic content mandate or less domestic
content mandate) may create or sustain more jobs, but the OIG role is to determine how
effective and efficient Ex-Im develops and implements the guidelines and monitors the
content levels represented by participants of supported exports. The language of
section 5 requires the OIG to step out of its statutory role to develop an evaluation of the
economic impacts of the domestic content guidelines on exporters and the job market
and to recommend how to improve the guidelines to foster greater job creation.
Providing guidance on an executive policy route Ex-Im should embark on and using the
IG to determine the effectiveness of such guidance can be construed as an extension of
the political process, something traditionally considered outside the statutory duties of
the OIGs and that may affect the operational independence of its functions.

Impact upon the Financing of the OIG: In order to effectively evaluate the economic
impact of the domestic content guidelines on domestic jobs, the industries and kind of
jobs affected, and how these guidelines can be modified to have a better impact on
maintaining jobs and job creation, this office would be required to contract for the
services of consultants, economists, and other professionals who can accurately collect,
analyze, and interpret the data collected from Ex-Im, exporters, manufacturers, trade
organizations, labor unions, U.S. Department of Labor, U.S. Department of Commerce,
U.S. Small Business Administration and other economic indicators. These are
capabilities that the OIG office, with a staff of eleven (11) career professionals and a
current budget of $2.5 million per year, does not have in-house. In order to effectively
monitor such a contract and prepare the appropriate report, the OIG office would have
to devote 2 – 3 staff to work with these consultants. Currently, our office produces 6 – 7
audits/evaluations a year (with three auditors) and is investigating over 500
transactions/claims (consisting of 37 investigations conducted by five agents). In the
years when the report is required, the OIG would have to shift resources away from
areas of Ex-Im operations already identified by our office to address the reporting
requirements imposed by Section 5(i)(7).




                                        2 of 3                          Office of Inspector General
                                                                  Export-Import Bank of the United States
Statement of Osvaldo Luis Gratacós                                                       June 7, 2011
Inspector General


As a new office, we have struggled to receive appropriate funding to address the areas
of oversight this office has identified and to address the significant growth Ex-Im has
experienced in the past several years. Although budget increases have been requested
by the OIG, submitted by OMB, and recognized by the U.S. Senate, this office has yet
to receive a budget increase in three fiscal years. Increasing reporting requirements
while limiting funding would inevitably reduce our ability to positively influence Ex-Im
operations.

Summary and Alternative Approach: The OIG respectfully petitions this honorable
Subcommittee and Committee to reconsider the language of Section 5(i)(7), Report to
Congress, requiring the Inspector General to provide a report on the impact of the
domestic content guidelines on exporters. We believe that this evaluation would be
better served as part of Ex-Im Bank’s implementation of its new guidelines. The OIG
would work closely with Ex-Im Bank and Congress to assess the effectiveness of data
and methodologies used in the reporting (similar to our current role reviewing Economic
Impact guidelines used by Ex-Im)1 to ensure that Ex-Im Bank and Congress can fully
and appropriately evaluate the effectiveness of these new guidelines.

Using OIG funds to conduct an exhaustive and broad evaluation of the impact of the
domestic content guidelines will negatively impair our ability to focus on the true
statutory mission of the Inspector General Act of 1978, which is to protect and detected
fraud, waste, and abuse.

Thank you again for this opportunity to further explain the impact this provision will have
on the OIG.




                                        3 of 3                          Office of Inspector General
                                                                  Export-Import Bank of the United States
